2311 Douglas Street

@OCKLE

Le g al B riefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-582
SARA ANN EDMONDSON,
Petitioner,

vs.

LILLISTON FORD, INC.; JANE AND JOHN DOES 1 - 10,
Individually and as owners, officers, directors,
founders, managers, agents, servants, employees,
representatives and/or independent contractors of
LILLISTON FORD, INC.; XYZ CORPORATIONS 1 — 10,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of December, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
REBECCA C. LAFFERTY, ESQUIRE
COOPER LEVENSON, P.A.
1125 Atlantic Avenue, Suite 300
Atlantic City, New Jersey 08401
(609) 572-7550
rclafferty@cooperlevenson.com
Counsel for Respondent,

Lilliston Ford, Inc.

Subscribed and sworn to before me this 17th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : L% ‘.

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39201
SERVICE LIST

Sara Ann Edmondson
71 Rainbow Trail
Pittsgrove, NJ 08318
856-455-4116

[no email]
